IN THE UNITED STATES SUPREME COURT
SUPREME COURT CASE No.:
Justin Lamar Johnson Sr.
Civil action No.: 1H9 CV 2300
Plaintiff/Petitioner/Appellant
Appeal No.: 20-3280
V.
Judge:________________
Judge Joseph Gibson
Noting Date:___________
Stephen Kandel
Proof of Service
Lewis Guarnieri
Judge Chryssa Hartnett
Hope Konovsky
John Fererro
Mary Warlop
The Ohio Attorney General
The Attorney General for the United States
PROOF OF SERVICE
I,, do swear or declare that on this date, AcBgttst
2020 , as required by Supreme Court
Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS, PETITION FOR A WRIT OF CERTIORARI, AND MOTION TO EXPEDITE
on each party to the above proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party!commercial carrier for delivery within 3 calendar days. The
names and addresses of those served are as follows:

Defendant No.: 1

Name: Stephen Kandel
Job or titled Attorney
Street Address: 200 Tuscarawas st
City and County: Canton and Stark
State and Zip code: Ohio 44702
Telephone No: 3304534444
Defendant No.: 2
Name: Joseph Gibson
Job or title: Jidge
Street Address: 8261 Whitnev Lane
City and County: Painseville And Lake
State and Zip code: Ohio 44077
Telephone No:
Defendant No.: 3
Name: Chrvssa Hartnett
Job or title: Judge
Street Address: 115 Central Plaza N
City and County: Canton and Stark
State and Zip code: Ohio 44702
Telephone No:
Defendant No.: 4
Name: Mary Warlop
Job or title: Attorney
Street Address: 200 Tuscarawas st
City and County: Canton and Stark
State and Zip code: Ohio 44702
Telephone No:
Defendant No.: 5
Name: Hope Konovskv
Job or title: Prosecutor
Street Address: 110 Market ave S
City and County: Canton and Stark
State and Zip code: Ohio 44702
Telephone No: 3304517897
Defendant No.: 6
Name: John Ferrero
Job or title: Prosecutor
Street Address: HO Market ave S
City and County: Canton and Stark
State and Zip code: Ohio 44702
Telephone Nq:3304517897

i~

J

Defendant No.: 7
Name: Lewis Guarnierri
Job or title: Prosecutor
Street Address: 5353 Vermouth st N.W.
City and Countv:North Canton and Stark
State and Zip code: Ohio 44720
Telephone No:
Defendant No.: 8
Name: Ohio Attorney General
Job or title: Ohio Attorney General
Street Address: 30 East broad st.
City and County: Columbus and Franklin
State and zip code: Ohio 43215
Telephone No.:
Defendant No.: 9
Name: The United States Attorney General
Job or title: The United States Attorney General
Street Address: 950 Pennsylvania ave sw.
City and county: District of Columbia
State and zip: Washington. D.C. 20530

q
Executed on Augusts!th 2020
I declare under penalty of perjury that the foregoing is true and correct.
Justin Johnson

